                                                                             Report No. DODIG-2014-115



              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              SEPTEMBER 12, 2014




                     Complaint Regarding the Use of
                     Audit Results on a $1 Billion Missile
                     Defense Agency Contract




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
    I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                         Mission
      Our mission is to provide independent, relevant, and timely oversight
      of the Department of Defense that supports the warfighter; promotes
      accountability, integrity, and efficiency; advises the Secretary of
                 Defense and Congress; and informs the public.



                                          Vision
      Our vision is to be a model oversight organization in the Federal
      Government by leading change, speaking truth, and promoting
      excellence—a diverse organization, working together as one
               professional team, recognized as leaders in our field.




                                     Fraud, Waste & Abuse

                                     HOTLINE
                                     Department of Defense
                                     dodig.mil/hotline | 8 0 0 . 4 2 4 . 9 0 9 8




For more information about whistleblower protection, please see the inside back cover.
                                       Results in Brief
                                       Complaint Regarding the Use of Audit Results on a
                                       $1 Billion Missile Defense Agency Contract



September 12, 2014                                     Findings Continued

Objective                                              Although MDA negotiated the contract covered in this report
                                                       4 years ago, MDA should improve its use of DCAA audit
We conducted this evaluation to determine              results and implement required withholds in order to help
the validity of a complaint alleging that Missile      protect the Government’s interests and ensure contracting
Defense Agency (MDA) negotiated a $1 billion           officers negotiate a fair and reasonable price on future contracts.
contract without considering the audit results
from Defense Contract Audit Agency (DCAA).
                                                       Management Actions
Findings                                               During our evaluation, MDA developed procedures to improve
                                                       its communications with DCAA and to ensure appropriate
We substantiated the complaint. MDA                    consideration of DCAA audit results. Among them, MDA now
contracting officials negotiated the $1 billion        requires coordination with DCAA throughout the acquisition
contract without considering the results               process and consider DCAA audit results.  If properly
of an audit performed by DCAA.  If MDA                 implemented, the new procedures should help to ensure
officials had considered the DCAA results, the         the appropriate consideration of DCAA findings. We will
Government could have negotiated a                     monitor the effectiveness of the procedures.
significantly lower contract value and thereby
saved millions of dollars in reduced contract
fees. Although MDA officials had requested
                                                       Recommendations
a DCAA audit, they did not wait for the                We recommend that MDA:
results and withheld key information from
                                                          •	 Consider appropriate corrective and/or administrative action
DCAA, such as MDA’s decision to reduce the
                                                             for not maintaining effective communications with DCAA or
contract scope by one-half. MDA officials
                                                             using the audit results in establishing a fair and reasonable
also did not consider the impact of the
                                                             contract price. (see recommendation A on page 9)
contractor’s business system deficiencies, as
Federal Acquisition Regulation 15.406-3(a)(4),            •	 Provide training to contracting officials on the requirement
“Documenting the Negotiation,” requires.                     to withhold a percentage of payments until the Government
                                                             and the contractor reach agreement on the contract terms.
In addition, MDA officials failed to withhold
15 percent (approximately $73 million) from            Management Comments and
the contractor’s billings under the same
contract as Federal Acquisition Regulation             Our Response
Clause 52.216-26, “Payments of Allowable Costs         In a July 15, 2014, response, the Executive Director of Missile
Before Definitization,” requires.  Withholdings        Defense Agency disagreed with certain aspects of the reported
were necessary to protect the Government’s             findings, but agreed with the reported recommendations.
interests until the Government and the                 The Executive Director’s disagreement did not result in
contractor negotiated final contract terms.            changes to our findings. Comments on the recommendations were
                                                       fully responsive.
Visit us on the web at www.dodig.mil

                                                                            DODIG-2014-115 (Project No. D2011-DIP0AI-0231.000) │ i
                Recommendations Table
                                                          Recommendations        No Additional
                                      Management          Requiring Comment    Comments Required
                  Director, Missile Defense Agency                            A and B




ii │ DODIG-2014-115 (Project No. D2011-DIP0AI-0231.000)
                                  INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                  4800 MARK CENTER DRIVE
                               ALEXANDRIA, VIRGINIA 22350-1500


                                                                             September 12, 2014

MEMORANDUM FOR DIRECTOR, MISSILE DEFENSE AGENCY
               DIRECTOR, DEFENSE CONTRACT AUDIT AGENCY

SUBJECT: 	 Complaint Regarding the Use of Audit Results on a $1 Billion
           Missile Defense Agency Contract (Report No. DODIG-2014-115)

We are providing this draft report for your information and use. We substantiated the
allegation that contracting officials at the Missile Defense Agency (MDA) negotiated a $1 billion
contract without considering audit results from Defense Contract Audit Agency. MDA could
have negotiated a significantly lower contract value and saved the Government millions of
dollars in reduced fees if it had considered the audit results.

We considered management comments on a draft of this report when preparing the final
report. Comments from MDA on the recommendations conformed to the requirements of
DoD Directive 7650.3; therefore, we do not require additional comments.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604 8877, or e-mail address carolyn.davis@dodig.mil.




                                            Carolyn R. Davis
                                            Assistant Inspector General
                                            Audit Policy and Oversight




                                                                                           DODIG-2014-115│ iii
                  Contents
                  Introduction
                  Objective _________________________________________________________________________________________1
                  Background ______________________________________________________________________________________1

                  Finding A. DCAA Audit Findings Were
                  Not Considered________________________________________________________________________2
                  Audit Request____________________________________________________________________________________2
                  MDA Did Not Consider the DCAA Preliminary Audit Results ________________________________3
                  Negotiations Were Not Impacted for Business System Deficiencies_________________________5
                  Failure to Inform DCAA of Several Significant Events ________________________________________6
                  Management Actions____________________________________________________________________________8
                  Management Comments on the Finding and Our Response__________________________________9
                  Recommendation, Management Comments, and Our Response_____________________________9

                  Finding B. MDA Failed to Withhold Costs
                  Billed Under Letter Contracts _____________________________________________ 10
                  Letter Contracts _______________________________________________________________________________ 10
                  MDA Did Not Comply with a Key Contract Clause___________________________________________ 11
                  Management Actions__________________________________________________________________________ 11
                  Management Comments on the Finding and Our Response________________________________ 12
                  Recommendation, Management Comments, and Our Response___________________________ 12

                  Appendixes
                  Appendix A. Scope and Methodology________________________________________________________ 14
                      Use of Computer-Processed Data _______________________________________________________ 14
                      Prior Coverage_____________________________________________________________________________ 14
                  Appendix B. Chronology of Events___________________________________________________________ 16

                  Management Comments
                  Transmittal Letter on GMD Core Completion________________________________________________ 17
                  Draft Report Response to Recommendations on GMD Core Completion__________________ 19
                  Missile Defense Agency Comments___________________________________________________________ 21

                  Acronyms and Abbreviations______________________________________________ 32

iv │ DODIG-2014-115
                                                                                                   Introduction




Introduction
Objective
We conducted this evaluation to determine the validity of a complaint alleging that
Missile Defense Agency (MDA) contracting officials negotiated a $1 billion contract
prior to receiving the results of a Defense Contract Audit Agency (DCAA) audit report
on the contractor’s proposal. According to the complaint, DCAA had questioned several
millions of dollars in proposed costs, which MDA failed to consider in its negotiations
with the contractor.

See Appendix A for details of our scope and methodology. See Appendix B for the
sequence of events.


Background
Missile Defense Agency
MDA is a research, development, and acquisition agency within DoD. Its workforce
includes government civilians, military service members, and contractor personnel
in multiple locations across the United States. MDA works closely with combatant
commanders to ensure that a robust ballistic missile defense system is available to
protect the United States and its allies against evolving threats of a hostile missile attack.


Defense Contract Audit Agency
In accordance with DoD Directive 5105.36, “Defense Contract Audit Agency (DCAA),”
DCAA performs contract audits and provides accounting and financial advisory
services in connection with the negotiation, administration, and settlement of contracts
and subcontracts. DCAA operates under the authority, direction, and control of the
Under Secretary of Defense (Comptroller).         DCAA maintains a Headquarters, Field
Detachment (for audits involving DoD classified programs), and five regions: Central,
Eastern, Mid-Atlantic, Northeastern, and Western. Each region operates several field
audit offices (FAOs).

As part of its mission, DCAA audits forward pricing proposals submitted by DoD
contractors and subcontractors in connection with the award of Government
contracts. DCAA uses criteria in the Federal Acquisition Regulation (FAR), Defense
Federal Acquisition Regulation Supplement (DFARS), and Cost Accounting Standards
to determine the allowability, allocability, and reasonableness of proposed costs.




                                                                                                 DODIG-2014-115│ 1
Finding A




                 Finding A
                 DCAA Audit Findings Were Not Considered
                 We substantiated the complaint that MDA contracting officials did not consider the
                 DCAA audit results associated with a $1 billion contract. DCAA had preliminarily
                 questioned $224 million of the contractor’s proposed costs, but the MDA negotiation
                 memorandum did not address the DCAA questioned costs. MDA could have achieved
                 significant savings for the Government if it had considered the DCAA audit results.
                 In addition, MDA officials did not consider the impact of significant business
                 system deficiencies on the contractor’s proposal, as FAR 15.406-3(a)(4), “Documenting
                 the Negotiation,” requires.                    Furthermore, MDA officials failed to inform DCAA
                 of key events that had significant impact on the conduct of the audit and the
                 negotiations with the contractor.                           During our evaluation, MDA management
                 implemented several procedures, which should improve communications with
                 DCAA and the use of DCAA audit results.



                 Audit Request
                 On December 17, 2009, at MDA’s request, a DCAA FAO in Huntsville, Alabama,
                 began auditing a $2.07 billion cost-plus-fixed/award-fee1 proposal submitted by a
                 DoD contractor for the Ground-Based Midcourse Defense (GMD) Core Completion
                 Contract Extension (hereafter referred to as the GMD proposal.). The FAO initially
                 agreed to provide the audit results on February 15, 2010. On February 11, 2010,
                 DCAA requested an extension to March 15, 2010, in order to incorporate the audit results
                 of major subcontracts and the impact of a Defense Contract Management Agency technical
                 evaluation. MDA granted the requested extension. In January  2010, prior to granting
                 the extension, MDA significantly reduced the scope of work to be performed under the
                 contract by approximately one-half due to funding limitations. On February 1, 2010,
                 MDA and the contractor commenced negotiations. On February 27, 2010, prior to
                 receiving the DCAA audit results, MDA and the contractor reached an agreement on
                 the contract costs.              On March 3, 2010, they also reached an agreement on the
                 associated award fees. Table 1 shows a summary of the proposed and negotiated costs
                 and fees.

                 	1	
                        A cost-plus-award-fee contract provides for the reimbursement of allowable costs incurred plus a fee consisting of (a)
                       a fixed amount that is established at inception of the contract and (b) an award amount, which can vary based upon a
                       judgmental evaluation by the Government as to performance. Both the fixed fee and the maximum award fee are based
                       on a percentage of the estimated costs negotiated under the contract.




2 │ DODIG-2014-115
                                                                                                                            Finding A



Table 1. Proposed and Negotiated Costs and Fees
                                                                                             Negotiated Agreement
              Cost Element                           Originally Proposed                    (After Scope Reduction)
 Estimated Costs                                           $1,808,230,972                           $967,424,804
 Fixed/Award Fees                                              264,678,915                           121,266,261
      Total Costs and Fees                                 $2,072,909,887                         $1,088,691,065


On March 10, 2010, MDA signed a contract that incorporated the negotiated
costs and fees of $1,088,691,065.                        MDA did not notify DCAA of either the scope
reduction or the negotiated agreement. On March 16, 2010, shortly after learning
from a subcontractor that the contract had been negotiated, DCAA discontinued
its audit of the GMD proposal.


MDA Did Not Consider the DCAA Preliminary
Audit Results
DFARS Procedures, Guidance, and Instruction (PGI) 215.404-2(a)(i)(c) states
contracting officers should consider requesting an audit of cost-type proposals
that exceed $10 million.  Although MDA asked DCAA to perform an audit of the
GMD proposal, MDA did not wait for or use the DCAA audit results in negotiating the
GMD contract.

When MDA completed the negotiations and DCAA discontinued its audit, DCAA
tentatively questioned $224 million2 of the $1.8 billion in costs originally proposed
by the contractor.

The MDA negotiation memorandum prepared by the contracting officer does not
reflect that MDA had considered the preliminary audit results in negotiating the
GMD contract.  Although DCAA had not formally reported its final results as of
February 27, 2010 (the date of agreement on cost), MDA contracting officials could
have obtained the preliminary results from DCAA and considered them prior to
concluding negotiations.                   Therefore, we substantiated the allegation that MDA
negotiated the GMD contract without considering the DCAA preliminary audit results.




	2	
      DCAA questioned costs are based on the contractor’s $2.1 billion original proposal.




                                                                                                                      DODIG-2014-115│ 3
Finding A



                 If MDA had considered the audit results, the Government could have negotiated a
                 significantly lower contract value and therefore, saved millions of dollars in reduced
                 fees.      For example, if MDA had used the DCAA recommended labor and indirect
                 rates for various cost elements (such as direct labor and general and administrative
                 costs) in negotiating the GMD contract, we estimate that negotiated costs would be
                 approximately $10 million lower and the Government could have saved $1.1 million
                 in reduced fees.  Notwithstanding the DCAA recommended rates, MDA also did not
                 use the contractor’s latest proposed rates, which would have reduced the GMD
                 contract value by an estimated $3 million and the fees by about $377,000. Instead, the
                 contracting officer used higher, outdated contractor rates to establish the estimated
                 costs and fees to be paid by the Government.

                 The negotiation memorandum does not explain why MDA officials did not consider
                 the preliminary DCAA results.                    MDA contracting officials stated that they did not
                 wait for the DCAA audit report or consider the preliminary audit results because
                 they had to adhere to a March 10, 2010, deadline, which the Director, MDA, had
                 established. We interviewed the now former Director, MDA,3 who served as
                 Director when the GMD negotiations took place.                                 Although the former Director
                 commented that he did not recall establishing a March 10, 2010, deadline, MDA
                 contracting officials were operating under their belief that contract negotiations
                 had to be completed by March  10, 2010, and the deadline could not be extended.
                 The former Director, however, indicated that if he had established such a deadline,
                 he would have extended it if MDA contracting officials had expressed to him a
                 compelling reason to do so. We found no evidence in the contract file suggesting
                 that the contracting officials had requested the former Director to extend the deadline.

                 The former Director also stated he was not aware that MDA contracting officials
                 negotiated the contract without receiving a DCAA audit of the contractor’s
                 proposal.  He said it was MDA’s typical practice to obtain a DCAA audit prior to
                 negotiating a major contract such as the GMD effort.

                 MDA contracting officials pointed out that they had incorporated a “reopener” clause
                 into the contract, allowing MDA to negotiate an adjustment to the contract price once
                 DCAA issued its final audit results. Although the officials did incorporate a reopener
                 clause, which they exercised in July 2011, the MDA contract file does not contain
                 any evidence suggesting that they considered the preliminary DCAA audit results
                 when they exercised the reopener clause.


                 	3	
                       The former Director referred to in this report served as Director, MDA, from November 2008 to November 2012.




4 │ DODIG-2014-115
                                                                                                    Finding A



Negotiations Were Not Impacted for Business
System Deficiencies
FAR 15.406-3(a)(4) requires that contracting officers document the current status
of the contractor’s business systems to the extent they affected and were considered
in the negotiation.  In the negotiation memorandum for the GMD contract, the
contracting officer stated that all of the contractor’s business systems were adequate
according to DCAA audit reports issued in 2007 and 2008. However, this statement
did not accurately reflect the status of the contractor’s business systems as of
February 2010, when GMD negotiations commenced. DCAA issued two reports in
2009 that identified significant deficiencies associated with two of the contractor’s
business systems, the estimating and accounting systems.


Estimating System
On February 6, 2009, DCAA reported deficiencies with the contractor’s estimating
system, such as the lack of adequate supporting documentation for pricing proposals
and the failure to conduct a subcontract cost price analysis. These estimating system
deficiencies could have directly affected the proposal submitted by the contractor for
the GMD effort. However, we found no evidence in the negotiation memorandum or
the contract file that the MDA contracting officer was aware of, or considered, these
deficiencies in negotiating the GMD contract.


Accounting System
On March 24, 2009, DCAA reported that the contractor’s accounting system
was inadequate due to deficiencies, which resulted in unallowable costs being
recorded, billed, and forecasted on Government contracts.             In addition, DCAA
found that the contractor failed to timely disclose to the Government unallowable
costs it had discovered.         As with the estimating system deficiencies, the
MDA contracting officer did not document her consideration of the accounting
system deficiencies on the GMD contract, as FAR 15.406‑3(a)(4) requires.

The contracting officer’s failure to consider the effect of the accounting and estimating
deficiencies put the Government at significant risk, such as the risk of accepting a flawed
proposal and paying significant unallowable costs under the $1 billion GMD contract.




                                                                                              DODIG-2014-115│ 5
Finding A



                 Failure to Inform DCAA of Several Significant Events
                 MDA contracting officials failed to effectively communicate with DCAA regarding
                 several significant events that directly impacted the DCAA audit.  The following
                 sections address instances of MDA contracting officials not effectively communicating
                 with DCAA.


                 MDA Did Not Inform DCAA of the Major Scope Reduction
                 In January 2010, while DCAA was performing its audit at MDA’s request, MDA
                 contracting officials elected to reduce the scope of the contract by approximately
                 one-half of the originally planned effort. The scope reduction could have significantly
                 impacted the DCAA audit in terms of planning the audit steps, conducting testing,
                 and reporting the audit results. Although DCAA continued to audit the contractor’s
                 outdated proposal through the beginning of March 2010, MDA never advised DCAA
                 of the scope reduction or its impact on the proposal. MDA’s failure to advise DCAA of
                 the scope reduction was inconsistent with FAR 15.404-2(c)(3), requiring contracting
                 officials to provide auditors with copies of any updated information that significantly
                 affect the audit.


                 DCAA Was Not Aware of the Negotiation Deadline
                 MDA contracting officials did not advise DCAA of the March 10, 2010, deadline
                 for negotiating the GMD contract that contracting officials claim the Director,
                 MDA, had established.  MDA officials knew of the deadline, yet they did
                 not advise DCAA of it.  If DCAA had known about the deadline, DCAA could
                 have committed additional resources, made adjustments to the audit scope, or
                 taken other appropriate measures to accommodate the deadline.


                 MDA Granted a Due Date Extension Beyond the Deadline
                 On February 11, 2010, MDA granted DCAA a due date extension to March 15, 2010,
                 knowing that the audit would be received after the March 10, 2010, deadline for
                 negotiating the contract.

                 Normally, the contracting officer should receive a DCAA audit report well before the
                 start of negotiations, to help establish the Government’s prenegotiation “objective.”
                 FAR 15.406-1(a), “Prenegotiation Objectives,” states that the contracting officer
                 should consider all pertinent information in formulating the objective, including the
                 audit report. MDA documented its prenegotiation objective for the GMD contract in a
                 January 21, 2010, prenegotiation memorandum.  In the memorandum, MDA
                 indicated that DCAA was not able to complete their audit in time to meet the


6 │ DODIG-2014-115
                                                                                                                                Finding A



MDA acquisition schedule.                   On February 11, 2010 (20 days after executing the
January 21, 2010 prenegotiation memorandum), MDA granted the March  15,   2010,
due date extension even though MDA officials knew it would exceed the
March 10, 2010, deadline and the officials had commenced negotiations with the
contractor. MDA officials were operating under the March 10, 2010, deadline before
they granted the extension to DCAA.

After MDA granted the extension, DCAA continued to expend scarce audit resources
and believed the audit would serve a useful purpose in negotiating a fair and
reasonable contract price. Although MDA had incorporated a reopener clause, the
clause could only be used to adjust the negotiated value of three subcontracts (the
majority of the negotiated contract value could not be adjusted, including the prime
contract). As previously discussed, we found no evidence suggesting that MDA had
exercised the reopener clause to incorporate the DCAA results.


MDA Did Not Advise DCAA of the Negotiation Status
DCAA audits forward pricing proposals in order to determine the allowability, allocability,
and reasonableness of the contractor’s proposed costs. On February 27, 2010, while
DCAA was still conducting its audit, MDA reached an agreement with the contractor
on the negotiated GMD costs. However, MDA did not inform DCAA of the negotiated
agreement.          DCAA first learned about the agreement on March 4, 2010, during a
discussion with one of the GMD subcontractors. The DCAA FAO manager responsible
for auditing the prime contractor’s proposed costs contacted the MDA contracting officer
who confirmed that a negotiated agreement had been reached. On March 10, 2010,
after learning that the reopener clause did not cover the prime contractor’s proposed
costs, the DCAA FAO manager discontinued the audit. If the MDA contracting officer had
timely informed DCAA of the negotiated settlement, DCAA could have discontinued the
audit sooner and saved scarce audit resources. DCAA expended 1,191 hours4 auditing
the contractor’s GMD proposal. This effort was wasted in large part because MDA did
not appropriately communicate with DCAA during the GMD acquisition effort.

FAR 15.404-2(a)(3), “Information to Support Proposal Analysis,” encourages
contracting officials to communicate with appropriate field pricing experts (such
as DCAA) during the acquisition process, including negotiations. MDA officials did
not comply with the spirit or intent of FAR 15.404-2(a)(3) when they repeatedly
failed to disclose key events to DCAA.


	4	
      We estimate the value of the 1,119 audit hours to be approximately $129,486, based on DCAA’s FY 2010 reimbursable
      billing rate of $108.72 per hour.




                                                                                                                          DODIG-2014-115│ 7
Finding A



                 Management Actions
                 During our evaluation, we communicated our concerns to MDA officials. In response
                 to our concerns, MDA incorporated several substantial changes to its procedures
                 to help improve MDA’s coordination with DCAA and its use of DCAA audit
                 results.    Examples of the changed procedures include the requirement that MDA
                 contracting officials:

                            •	 coordinate with and keep DCAA apprised throughout the acquisition
                              process;

                            •	 make every effort to resolve issues disclosed in DCAA audit reports and
                              document significant disagreements with DCAA audit findings;

                            •	 analyze DCAA-questioned costs in establishing the negotiation objective;

                            •	 invite DCAA to participate in the negotiation process, advise DCAA of their
                              resolution of the audit findings, and provide a copy of the negotiation
                              memorandum to DCAA;

                            •	 document the rationale for all cost elements that make up the MDA
                              negotiation objective; and

                            •	 obtain the current status of the contractor’s business systems and
                              document their consideration in the negotiation;

                 If effectively implemented, the revised procedures should improve MDA’s audit
                 coordination and use of DCAA audit results. We will monitor the effectiveness of the
                 revised procedures.

                 However, MDA should also consider appropriate corrective and/or administrative
                 action for the contracting officials who were responsible for working with DCAA
                 and properly using the audit results because MDA withheld key acquisition
                 information from DCAA and failed to consider the DCAA audit results.




8 │ DODIG-2014-115
                                                                                                  Finding A



Management Comments on the Finding and
Our Response
MDA provided several comments to Finding A referred to as “MDA Technical Comments on
Draft Report”. Details of the MDA comments can be found in the Management Comments
section of this report.


Our Response
MDA management comments did not result in changes to Finding A.


Recommendation, Management Comments, and
Our Response
Recommendation A
We recommend that the Director, Missile Defense Agency, consider appropriate
corrective and/or administrative action for those contracting officials who did
not maintain effective communications with the Defense Contract Audit Agency
or use the audit results in establishing a fair and reasonable contract price.


Executive Director, Missile Defense Agency Comments
The   Executive    Director,   Missile   Defense   Agency,   agreed   and   stated   that
appropriate corrective action was taken to ensure all acquisition personnel
have the proper training, education, and certification.         MDA made significant
improvements in certifications (including the underlying training, education, and
experience requirements) that will prevent breakdowns in communications and
appropriate actions.


Our Response
The management comments to the recommendation are responsive and no additional
comments are required.




                                                                                            DODIG-2014-115│ 9
Finding B




                 Finding B
                 MDA Failed to Withhold Costs Billed Under
                 Letter Contracts
                 MDA         contracting           officials      failed       to     withhold         15      percent         (approximately
                 $73 million) from contractor costs billed under a letter contract5 and the
                 subsequent modification, as FAR 52.216-26 Clause, “Payments of Allowable Costs
                 Before Definitization,” requires.                     Contracting officials had an obligation to enforce
                 the FAR clause and protect the Government’s interests until MDA reached an
                 agreement on contract terms with the contractor.

                 	5	
                       FAR Clause 16.603-1, “Description,” defines a letter contract as a written preliminary contractual instrument that
                       authorizes the contractor to immediately begin manufacturing supplies and performing services. A letter contract
                       may be used when (1) the Government’s interests demand that the contractor be given a binding commitment
                       that work can start immediately and (2) negotiating a definitive contract is not possible in a sufficient time to meet
                       the requirement.




                 Letter Contracts
                 In some instances, Government contracting officials will issue a letter contract before
                 the Government and the contractor reach a definitive agreement on price, terms,
                 or specifications.             Although a letter contract allows the contractor to begin work
                 immediately, they carry associated risks to the Government. In recognition of those
                 risks, FAR clause 52.216-26 imposes specific limits on reimbursement of allowable
                 costs incurred by a contractor before contract definitization.  For example,
                 payments to a contractor under a cost-reimbursement contract must not exceed
                 85 percent of allowable costs. In other words, the remaining 15 percent of allowable
                 costs billed by a contractor for cost-reimbursement contracts must be withheld
                 until the Government and contractor definitize the contract terms.                                                  The clause
                 serves to protect the Government’s interests and incentivize contractors to submit
                 adequate and timely cost proposals in order to facilitate timely contract definitization.

                 MDA issued a letter contract and a subsequent contract modification for the
                 GMD effort.             MDA executed the letter contract on December 30, 2008, covering
                 the inception of the effort through July   2009 (also referred to as “Bridge 1”).
                 MDA definitized the Bridge 1 letter contract on June  23,  2009. On August 9, 2009,
                 MDA officials issued a contract modification covering August 2009 through
                 January 2010 (also referred to as “Bridge 2”), which was later extended to
                 March 10, 2010.                MDA definitized Bridge 2 on March 10, 2010.                                   Both the letter
                 contract and the subsequent modification were subject to FAR clause 52.216-26.



10 │ DODIG-2014-115
                                                                                             Finding B



MDA Did Not Comply with a Key Contract Clause
In violation of FAR clause 52.216-26, MDA reimbursed 100 percent of the
contractor’s billed costs prior to definitizing the letter contract (Bridge 1) and the
subsequent modification (Bridge 2).  We estimate that MDA should have withheld
$73  million from the Bridges 1 and 2 billings combined.  This estimate is based
on the cumulative billings under the GMD contract of approximately $487  million
as of March 10, 2010, multiplied by 15 percent.

When we asked MDA contracting officials why they did not withhold billings as
FAR clause 52.216-26 requires, MDA officials responded in writing as follows:

            None of the applicable FAR/DFARS clauses in the contract
            required withholds, nor did the PCO determine such was in the
            best interest of the Government.

However, the letter contract (Bridge 1) and subsequent modification (Bridge 2)
were subject to FAR clause 52.216-26.           Therefore, the contracting officer was
required to withhold 15 percent of allowable billed costs.        The clause does not
allow for discretion in implementing the withholding.

The MDA contracting officials’ lack of knowledge concerning a key contract clause
demonstrates the need for immediate corrective action. The Director, MDA, should
consider appropriate corrective actions for the contracting officials’ failure to
withhold 15  percent from the contractor’s billings.       Further, the Director should
make improvements to MDA procedures to help ensure that MDA contracting officers
implement withholdings when they are required by FAR clause 52.216-26.


Management Actions
During our evaluation, MDA developed new procedures to require that contracting
officers document any special terms and conditions in the negotiation memorandum,
such as special payment procedures and contract clauses.

We examineded the newly developed procedures.  Although they represent an
improvement, they are insufficient to provide reasonable assurance that contracting
officers will implement the withholding requirements for letter contracts addressed in
FAR clause 52.216-26. The new procedures should address the specific withholding
requirements under FAR clause 52.216-26. In addition, MDA should provide training
on the requirements to its contracting officials.




                                                                                      DODIG-2014-115│ 11
Finding B



                 Management Comments on the Finding and
                 Our Response
                 MDA provided comments to Finding B referred to as “MDA Technical Comments on
                 Draft Report”.   Details of the MDA comments can be found in the Management
                 Comments section of this report.


                 Our Response
                 MDA management comments did not result in changes to Finding B.


                 Recommendation, Management Comments, and
                 Our Response
                 Recommendations B
                 We recommend that the Director, Missile Defense Agency:

                       1.	   Provide training to contracting officials on the specific requirements of
                             Federal Acquisition Regulation clause 52.216-26 to ensure enforcement
                             of required withholdings on letter contracts before definitization.

                 Executive Director, Missile Defense Agency Comments
                 The Executive Director stated that MDA has significantly improved its overall training
                 for contracting and acquisition personnel. The training addresses all areas of the
                 Federal Acquisition Regulation, Defense Federal Acquisition Regulation Supplement,
                 and best practices.


                 Our Response
                 The management comments to the recommendation are responsive and no additional
                 comments are required.

                       2.	 Consider appropriate corrective and/or administrative action for
                             contracting officials that were responsible for withholding funds
                             before contract definitization in accordance with Federal Acquisition
                             Regulation clause 52.216-26 and the terms of the contract.




12 │ DODIG-2014-115
                                                                                             Finding B



Executive Director, Missile Defense Agency Comments
The Executive Director agreed and stated that MDA has significantly reduced the
number of letter contracts and reduced the time required to definitize those contracts.


Our Response
The management comments to the recommendation are responsive and no
additional comments are required.




                                                                                      DODIG-2014-115│ 13
Appendixes




                 Appendix A
                 Scope and Methodology
                 We performed this evaluation in accordance with the Council of Inspectors General
                 for Integrity and Efficiency Quality Standards for Inspection and Evaluation.       As
                 part of our evaluation of the complaint, we:

                          •	 interviewed MDA contracting officials involved with negotiating the
                            GMD contract;

                          •	 interviewed DCAA employees involved in auditing the proposal for the
                            GMD contract;

                          •	 interviewed Defense Contract Management Agency employees who
                            conducted a technical evaluation of the proposal for the GMD contract;

                          •	 examined MDA, DCAA, and Defense Contract Management Agency records
                            and communications associated with the negotiation of the GMD
                            contract; and

                          •	 determined if the actions of MDA contracting officials complied with
                            applicable law, acquisition regulations, and DoD policy.

                 We recorded and obtained a transcription of the interviews we conducted.            We
                 conducted the evaluation from June 2011 through August 2013. Completion of the
                 evaluation was delayed to work on other priority projects.


                 Use of Computer-Processed Data
                 We did not rely on computer-processed data as part of our evaluation.


                 Prior Coverage
                 During the last 5 years, the DoD IG has issued one  report involving MDA acquisition
                 practices. The Government Accountability Office has also issued two reports on MDA
                 acquisition matters.




14 │ DODIG-2014-115
                                                                                  Appendixes



GAO
Report No. GAO-10-311, “Missile Defense Transition Provides Opportunity to
Strengthen Acquisition Approach,” February 25, 2010

Report No. GAO-13-432, “Opportunity to Refocus on Strengthening Acquisition
Management,” April 26, 2013


DoD IG
Report No. DODIG-2014-011, “Missile Defense Agency and Defense Microelectronics
Activity Use of Cost-Reimbursement Contracts,” November 22, 2013




                                                                              DODIG-2014-115│ 15
Appendixes




                 Appendix B
                 Chronology of Events
                             Dates                                  Description of Event

                                            MDA requested that DCAA Huntsville FAO audit the $2.1 billion
                      November 4, 2009      proposal after receiving it from the contractor.
                                            DCAA initiated its audit after receiving the GMD proposal from prime
                      December 16, 2009     contractor. Three other DCAA offices began auditing proposed major
                                            subcontract costs.
                                            DCAA and MDA agreed to a February 15, 2010, audit report due
                      December 29, 2009     date.

                      January 2010 (exact   Due to funding limitations, MDA elected to reduce the scope of the
                      day unknown)          contract effect by nearly one-half.
                                            MDA prepared a pre-negotiation memorandum to establish a
                                            target negotiated price of $1.188 billion. The memorandum notes
                      January 21, 2010      that the audit results will be received too late to be considered in
                                            negotiations.
                                            MDA began negotiations with the contractor. MDA presented the
                      February 1, 2010      contractor with its first offer.
                                            The DCAA FAO in Huntsville coordinated with the contracting officer
                      February 11, 2010     to extend the due date to March 15, 2010, in order to incorporate
                                            technical evaluation and assist audits.
                                            The DCAA FAO in Huntsville informed MDA that the assist audits
                      February 24, 2010     would not be complete until April. MDA requested DCAA to
                                            incorporate the assist audits prior to issuing their report.
                                            The contractor and MDA reached an agreement on the contract
                      February 27, 2010     costs, excluding fee, in the amount of $967.4 million. MDA did not
                                            advise DCAA of the agreement.
                                            Another DCAA FAO performing an assist audit of one of the
                      March 4, 2010         proposed subcontracts informed the DCAA FAO in Huntsville that
                                            negotiations with the contractor were completed.
                                            The MDA contracting officer acknowledged to DCAA that MDA had
                      March 4, 2010         negotiated the costs on the GMD contract, but that the contract
                                            would include a reopener clause to consider the audit results.

                      March 10, 2010        MDA and the contractor signed the GMD contract worth $1.1 billion.

                                            DCAA issued its audit report on the prime contractor’s forward
                      March 12, 2010        pricing rates.

                                            DCAA received an e-mail from the MDA Director of Contracts
                      March 16, 2010        confirming that the contract had already been signed.

                      April 29, 2010        DCAA issued a memorandum of its preliminary audit results to MDA.

                                            DCAA sent an e-mail to MDA asking whether MDA intended to
                      June 2, 2010          pursue its preliminary audit findings.

                      August through        MDA made significant policy changes based on concerns expressed
                      December 2012         by DoD OIG during the evaluation.



16 │ DODIG-2014-115
                                            Management Comments




Management Comments
Transmittal Letter on GMD Core Completion




                                                  DODIG-2014-115│ 17
Management Comments



                 Transmittal Letter on GMD Core Completion (cont’d)




18 │ DODIG-2014-115
                                           Management Comments



Draft Report Response to Recommendations
on GMD Core Completion




                                                 DODIG-2014-115│ 19
Management Comments



                 Draft Report Response to Recommendations
                 on GMD Core Completion (cont’d)




20 │ DODIG-2014-115
                                                                                                                                       Management Comments



Missile Defense Agency Comments


          TITLE OF DOCUMENT                                                                                          DATE OF
          MDA TECHNICAL COMMENTS on Draft Report for DoD IG Project # DIP0AI-0231.000                               DOCUMENT
                                                                                                                     May 2014
                                                                                                                    COMMENT VALUE
                                    RECOMMENDED CHANGES WITH RATIONALE                                            (C) Critical
          ITEM   PAGE    LINE NO.
                                    (Exact wording of suggested change)                                           (S) Substantive
           NO.    NO.
                                                                                                                  (A) Administrative
                                    Comment: We find the statement that DCAA had preliminarily questioned
                                    $224 million of the contractor’s proposed costs, but the MDA negotiation
                                    memorandum did not address the DCAA questioned costs inaccurate.

                                    Rationale: When DCAA requested an extension for the audit report they
                                    didn’t communicate with MDA that they had preliminary questioned costs. If
           1      2     Finding A                                                                                        (C)
                                    DCAA had, MDA would have requested them.

                                    This data was provided to Ms. Lynne Washburn, Director of Contracts,
                                    MDA/DA on July 20, 2010. The questioned costs were not received until after
                                    the award of March 10, 2010. DCAA did not communicate that they had any
                                    preliminary questioned costs.




                                                               Page 1 of 11




                                                                                                                                             DODIG-2014-115│ 21
Management Comments



          Missile Defense Agency Comments (cont’d)


                      TITLE OF DOCUMENT                                                                                                 DATE OF
                      MDA TECHNICAL COMMENTS on Draft Report for DoD IG Project # DIP0AI-0231.000                                      DOCUMENT
                                                                                                                                        May 2014
                                                                                                                                       COMMENT VALUE
                                                RECOMMENDED CHANGES WITH RATIONALE                                                   (C) Critical
                      ITEM   PAGE    LINE NO.
                                                (Exact wording of suggested change)                                                  (S) Substantive
                       NO.    NO.
                                                                                                                                     (A) Administrative
                                                Comment: We find the statement that MDA officials did not consider the
                                                impact of significant business system deficiencies on the contractor’s proposal,
                                                as FAR 15.406-3(a)(4) requires inaccurate.

                                                Rationale: The DCAA report NO. 1201-2009L24010002, dated February 6,
                                                2009 identified that estimating system deficiencies were cited and required
                                                corrective action to improve the reliability of its future cost estimates; however
                                                this report is limited to the cited deficiencies and accordingly DCAA did not
                                                express an opinion on the adequacy of the contractor’s estimating system
                                                internal controls taken as a whole. The DCAA report cited that the contractor
                       2      2     Finding A                                                                                               (C)
                                                lacked supporting documentation and sufficient vendor quotes. To ensure
                                                compliance, subcontractor proposals were thoroughly reviewed and a detailed
                                                technical evaluation was conducted to ensure the price was fair and reasonable.
                                                MDA relied on page 9 of the DCAA report which PCO defaulted back to the
                                                previous report, 1201-2006L24010001, dated June 27, 2007 which states the
                                                Estimating System and internal control policies are adequate.

                                                 See Page 9 of the DCAA Report No 1201-2009L24010002, dated February 6,
                                                2009, Attachment 1.




                                                                             Page 2 of 11




22 │DODIG-2014-115
                                                                                                                                            Management Comments



Missile Defense Agency Comments (cont’d)


          TITLE OF DOCUMENT                                                                                               DATE OF
          MDA TECHNICAL COMMENTS on Draft Report for DoD IG Project # DIP0AI-0231.000                                    DOCUMENT
                                                                                                                          May 2014
                                                                                                                         COMMENT VALUE
                                     RECOMMENDED CHANGES WITH RATIONALE                                                (C) Critical
           ITEM   PAGE    LINE NO.
                                     (Exact wording of suggested change)                                               (S) Substantive
            NO.    NO.
                                                                                                                       (A) Administrative
                                     Comment: We find the statement that MDA officials failed to inform DCAA
                                     of key events that had significant impact on the conduct of the audit and
                                     negotiations with the contractor inaccurate.

                                     Rationale: MDA provided e-mail and telephonic communications with
                                     DCAA. Communications with DCAA were encouraged. However, DCAA
                                     failed to communicate with MDA that they had preliminary questioned costs. If
            3      2     Finding A   they had, MDA would have requested the results be provided.                              (C)


                                     This data was provided to Ms. Lynne Washburn, Director of Contracts,
                                     MDA/DA on July 20, 2010. The questioned costs were not received until after
                                     the award of March 10, 2010 therefore, not applicable.


                                     Comment: We find the statement that MDA granted a due date extension of
                                     March 15, 2010 to DCAA inaccurate

                                     Rationale: In an e-mail from Ms. Leonard, DCAA requested an extension to
                                     March 15, 2010. The PCO acknowledged and thanked DCAA for the update.
                             3rd     While MDA acknowledged the request, an extension was never granted. Later
                          sentence   on, MDA discovered why the request was needed. DCAA voluntarily
            4      2       on 1st    expanded the audit to include a technical evaluation. It is also noted that the          (C)
                         paragraph   original DCAA audit request signed by Ms. Lynne Washburn, MDA/DA never
                                     requested a technical evaluation, nor did DCAA communicate to MDA they
                                     expanded the audit to include a technical evaluation. DCAA did not inform
                                     MDA that preliminary results were available.

                                     E-mail dated February 11, 2010 provided to DoD IG on 25 Aug 11


                                                                 Page 3 of 11




                                                                                                                                                  DODIG-2014-115│ 23
Management Comments



          Missile Defense Agency Comments (cont’d)


                      TITLE OF DOCUMENT                                                                                           DATE OF
                      MDA TECHNICAL COMMENTS on Draft Report for DoD IG Project # DIP0AI-0231.000                                DOCUMENT
                                                                                                                                  May 2014
                                                                                                                                 COMMENT VALUE
                                                RECOMMENDED CHANGES WITH RATIONALE                                             (C) Critical
                      ITEM   PAGE    LINE NO.
                                                (Exact wording of suggested change)                                            (S) Substantive
                       NO.    NO.
                                                                                                                               (A) Administrative
                                                Comment: We find the statement that MDA did not notify DCAA of either the
                                                scope reduction or the negotiated agreement to be inaccurate.

                                                Rationale: E-Mail traffic from Ms Leonard dated February 18, 2010 indicated
                                                that DCAA was aware of possible scope changes; therefore, the statement that
                                                DCAA did not know of the contract scope reduction is not accurate. E-mail
                                                traffic provided to DoD IG substantiated DCAA was informed by PCO on
                                      Second    March 4, 2010 that MDA had reached agreement on cost. Email traffic also
                                     sentence   provided to DoDIG that MDA requested DCAA to continue with audit since
                       5      3                                                                                                       (C)
                                    paragraph   PCO added a reopener clause and would use audit results for resolution. The
                                         1      PCO sent a copy of the contract and the negotiation memorandum with the re-
                                                opener clause on March 10, 2010 to Ms. Leonard. Documented e-mail was
                                                provided to the DoDIG.


                                                E-mail traffic dated 4 Mar 10 was provided to DoD IG on 25 Aug 11.




                                                                           Page 4 of 11




24 │DODIG-2014-115
                                                                                                                                           Management Comments



Missile Defense Agency Comments (cont’d)


          TITLE OF DOCUMENT                                                                                              DATE OF
          MDA TECHNICAL COMMENTS on Draft Report for DoD IG Project # DIP0AI-0231.000                                   DOCUMENT
                                                                                                                         May 2014
                                                                                                                        COMMENT VALUE
                                     RECOMMENDED CHANGES WITH RATIONALE                                               (C) Critical
           ITEM   PAGE    LINE NO.
                                     (Exact wording of suggested change)                                              (S) Substantive
            NO.    NO.
                                                                                                                      (A) Administrative
                                     Comment: We findthe statement that when MDA completed the negotiations
                                     and DCAA discontinued the audit, DCAA tentatively questioned $224 Million
                                     of the $1.8 Billion in costs originally proposed by the contractor to be
                                     inaccurate.

                             1st     Rationale: The preliminary data was provided to Ms. Lynne Washburn,
                          sentence   Director of Contracts, MDA/DA on July 20, 2010 several months after award.
            6      3         on      DCAA did not communicate to MDA the questioned costs were available at an               (C)
                         paragraph   earlier time. If MDA had knowledge of the questioned costs, we would have
                              3      requested the data be provided.

                                     This data was provided to Ms. Lynne Washburn, Director of Contracts,
                                     MDA/DA on July 20, 2010. The questioned costs were not received until after
                                     the award of March 10, 2010.

                                     Comment: We find the statement that MDA negotiation memorandum
                                     prepared by the contracting officer does not reflect that MDA considered the
                                     preliminary audit results in negotiating the GMD contract to be inaccurate.

                                     Rationale: The preliminary data was provided to Ms. Lynne Washburn,
                             1st
                                     Director of Contracts on July 20, 2010 several months after award. DCAA did
                         paragraph
            7      4                 not communicate to MDA the questioned costs were available at an earlier date.          (C)
                             1st
                                     If MDA had knowledge of the questioned costs, we would have requested the
                          sentence
                                     data be provided.

                                     This data was provided to Ms. Lynne Washburn, Director of Contracts,
                                     MDA/DA on July 20, 2010. The questioned costs were not received until after
                                     the award of March 10, 2010.



                                                                 Page 5 of 11




                                                                                                                                                 DODIG-2014-115│ 25
Management Comments



          Missile Defense Agency Comments (cont’d)


                      TITLE OF DOCUMENT                                                                                            DATE OF
                      MDA TECHNICAL COMMENTS on Draft Report for DoD IG Project # DIP0AI-0231.000                                 DOCUMENT
                                                                                                                                   May 2014
                                                                                                                                  COMMENT VALUE
                                                RECOMMENDED CHANGES WITH RATIONALE                                              (C) Critical
                      ITEM   PAGE    LINE NO.
                                                (Exact wording of suggested change)                                             (S) Substantive
                       NO.    NO.
                                                                                                                                (A) Administrative
                                                Comment: We find the statement that if MDA had used the DCAA
                                                recommended labor and indirect rates for various cost elements in negotiating
                                                the GMD contract, the negotiated cost would be lower to be inaccurate.
                                        2nd
                                    paragraph
                       8      4                 Rationale: MDA used current data and rates at time of award however; new               (C)
                                        2nd
                                                rates were approved from DCAA on March 12, 2010 two days after award.
                                     sentence
                                                Audit Report NO. 1201–2010L23000001 dated March 12, 2010, Attachment 2.

                                                Comment: We find the statement that MDA contracting officials stated that
                                                they did not wait for the DCAA audit report or consider the preliminary audit
                                                results because they had to adhere to a March 10, 2010 deadline to be
                                                inaccurate/incomplete.

                                       Last     Rationale: Again, MDA could not consider the preliminary audit results
                                    paragraph   because DCAA did not communicate to MDA that the data was available. On
                       9      4                 10 Mar 10, the Core Completion Contract period of performance expired,                 (C)
                                       first
                                     sentence   therefore to avoid a gap in contract coverage, MDA needed to definitize the
                                                unpriced change order on or before that date.

                                                As stated during DoDIG interviews, 3-5 Aug 11 an E-mail to Ms. Leonard on
                                                March 5, 2010 stated the contract expired on March 10, 2010.




                                                                            Page 6 of 11




26 │DODIG-2014-115
                                                                                                                                                Management Comments



Missile Defense Agency Comments (cont’d)


          TITLE OF DOCUMENT                                                                                                   DATE OF
          MDA TECHNICAL COMMENTS on Draft Report for DoD IG Project # DIP0AI-0231.000                                        DOCUMENT
                                                                                                                              May 2014
                                                                                                                             COMMENT VALUE
                                     RECOMMENDED CHANGES WITH RATIONALE                                                    (C) Critical
           ITEM   PAGE    LINE NO.
                                     (Exact wording of suggested change)                                                   (S) Substantive
            NO.    NO.
                                                                                                                           (A) Administrative
                                     Comment: We find thesecond sentence of the statement to be inaccurate.
                                     Negotiations were not impacted for Business System Deficiencies and the
                                     contracting officer stated that all of the contractor’s business systems were
                                     adequate according to DCAA audit reports issued in 2007 and 2008. However,
                                     this statement did not accurately reflect the status of the contractor’s business
                                     systems as of February 2010.

                                     Rationale: The DCAA report NO. 1201-2009L24010002, dated February 6,
                                     2009 identified that estimating system deficiencies were cited and required
                                     corrective action to improve the reliability of its future cost estimates; however,
                            3rd      this report is limited to the cited deficiencies and accordingly DCAA did not
                         paragraph   express an opinion on the adequacy of the contractor’s estimating system
           10      5                                                                                                              (C)
                            2nd      internal controls taken as a whole. The DCAA report citied that the contractor
                         Sentence    lacked supporting documentation and sufficient vendor quotes. To ensure that
                                     we were compliant, subcontractor proposals were thoroughly reviewed and the
                                     technical evaluation was detailed ensuring the price was fair and reasonable.
                                     Therefore, since DCAA did not express an opinion; we defaulted back to the
                                     previous report, 1201-2006L24010001, dated June 27, 2007 as stated on page 9
                                     of the report which states the Estimating System and internal control policies
                                     are adequate.

                                     See Page 9 of the DCAA Report No 1201-2009L24010002 dated February 6,
                                     2009, Attachment 1.




                                                                  Page 7 of 11




                                                                                                                                                      DODIG-2014-115│ 27
Management Comments



          Missile Defense Agency Comments (cont’d)


                      TITLE OF DOCUMENT                                                                                               DATE OF
                      MDA TECHNICAL COMMENTS on Draft Report for DoD IG Project # DIP0AI-0231.000                                    DOCUMENT
                                                                                                                                      May 2014
                                                                                                                                     COMMENT VALUE
                                                RECOMMENDED CHANGES WITH RATIONALE                                                 (C) Critical
                      ITEM   PAGE    LINE NO.
                                                (Exact wording of suggested change)                                                (S) Substantive
                       NO.    NO.
                                                                                                                                   (A) Administrative
                                                Comment: We find the statement that on March 24, 2009, DCAA reported
                                                that the contractor’s accounting system was inadequate due to deficiencies to be
                                                inaccurate.

                                                Rationale: March 24, 2009 DCAA audit report cited limited examination of
                                                the Corporate control environment which specifically relates to inadequacies
                                                cited in St Louis Audit Report dated November 5, 2008. This procurement
                                                was for Boeing Huntsville not St. Louis. However, the report stated that
                                        1st
                                                Boeing has implemented a new accounting system, the enterprise Accounting
                                    Paragraph
                       11     6                 System (EAS) effective January 1, 2007. DCAA stated they had not completed                (C)
                                        1st     a review of the newly implement accounting system on page 14. At time of
                                     sentence   award, the most current audit report was still dated March 24, 2009 which did
                                                not include a finding on the Boeing Huntsville accounting system.

                                                On page 14, of the DCAA Audit dated March 24, 2009 stated, a new report was
                                                to be issued by DCAA on or before March 28, 2009. At time of award, the
                                                most current audit report was still dated March 24, 2009 which did not include
                                                a finding on the accounting system.

                                                Comment: We find the statement that MDA never advised DCAA of the
                                                major scope reduction to be inaccurate.
                                       3rd
                                    paragraph   Rationale: E-Mail traffic from Ms Leonard dated February 18, 2010 indicated
                       12     6                 that DCAA was aware of possible scope changes; therefore, the statement that              (C)
                                       2nd      DCAA did not know of the scope reduction is not accurate.
                                    Sentence
                                                E-mail traffic dated 4 Mar 10 was provided to DoD IG on 25 Aug 11.




                                                                            Page 8 of 11




28 │DODIG-2014-115
                                                                                                                                           Management Comments



Missile Defense Agency Comments (cont’d)


          TITLE OF DOCUMENT                                                                                              DATE OF
          MDA TECHNICAL COMMENTS on Draft Report for DoD IG Project # DIP0AI-0231.000                                   DOCUMENT
                                                                                                                         May 2014
                                                                                                                        COMMENT VALUE
                                     RECOMMENDED CHANGES WITH RATIONALE                                               (C) Critical
           ITEM   PAGE    LINE NO.
                                     (Exact wording of suggested change)                                              (S) Substantive
            NO.    NO.
                                                                                                                      (A) Administrative
                                     Comment: We find the statement that DCAA was not aware of the
                                     Negotiation Deadline to be inaccurate.

                                     Rationale: DCAA was aware of the negotiation deadline. An e-mail March 5,
                            Last     2010 to Ms. Leonard stated the current contract expires on March 10, 2010 and
           13      6                                                                                                         (C)
                         Paragraph   MDA will not have contract coverage.

                                     E-mail traffic dated 5 Mar 10 provided to DoD IG on 25 Aug 11.


                                     Comment: We find the statement that MDA granted a due date extension
                                     beyond the deadline to be inaccurate.

                                     Rationale: In an e-mail from Ms. Leonard, DCAA requested an extension to
                                     March 15, 2010. The PCO acknowledged and thanked DCAA for the update.
                            1st      While MDA acknowledged the request, we never granted an extension. DCAA
           14      7                                                                                                         (C)
                         Paragraph   voluntarily expanded the audit to include a technical evaluation. DCAA did not
                                     communicate to MDA that they had expanded the audit to include a technical
                                     evaluation nor did they provide the preliminary results to MDA.

                                     E-mail dated February 11, 2010 provided to DoD IG on 25 Aug 11.

                                     Comment: We find thestatement that this effort was wasted in large part
                             1st     because MDA did not appropriately communicate with DCAA during the GMD
                         Paragraph   acquisition effort to be inaccurate.
                                                                                                                             (C)
           15      8
                            Last     Rationale: MDA would have considered the preliminary audit results if
                          sentence   DCAA had communicated to MDA that the data was available. MDA would
                                     also have used DCAA results on future Engineering Change Orders.


                                                                Page 9 of 11




                                                                                                                                                 DODIG-2014-115│ 29
Management Comments



          Missile Defense Agency Comments (cont’d)


                      TITLE OF DOCUMENT                                                                                           DATE OF
                      MDA TECHNICAL COMMENTS on Draft Report for DoD IG Project # DIP0AI-0231.000                                DOCUMENT
                                                                                                                                  May 2014
                                                                                                                                 COMMENT VALUE
                                                RECOMMENDED CHANGES WITH RATIONALE                                             (C) Critical
                      ITEM   PAGE    LINE NO.
                                                (Exact wording of suggested change)                                            (S) Substantive
                       NO.    NO.
                                                                                                                               (A) Administrative
                                                Comment: We find the statement that MDA did not comply with a key
                                                contract clause to be inaccurate.

                                                Rationale: Finding/Recommendation is not applicable since the contract in
                                                question is NOT a Letter Contract. The review only covered Bridge 2 and the
                                                Follow-on Efforts, neither of which were letter contracts (which is the only
                       16    10     Finding B                                                                                         (C)
                                                situation where FAR Clause 52.216-26 is applicable). The clause was in the
                                                base contract because it was awarded as a Letter Contract in Dec 2008.

                                                A copy of FAR 52.216-26- Payments of Allowable Costs Before Definitization
                                                and FAR 16.603- Letter Contracts, Attachment 3.

                                                Comment: We find the statement that MDA issued two letter contracts for the
                                                GMD effort to be inaccurate.

                                                Rationale: MDA executed one (1) letter contract on December 30, 2008 which
                                                was definitized on modification P0004, dated June 25, 2009. On August 9,
                                    2nd         2009, MDA issued an Undefinitized Change Order, which is referred to as
                       17    10                                                                                                       (C)
                                    Paragraph   Bridge 2. There were never two (2) letter contracts. The letter contract
                                                included FAR clause 52.216-26 and that clause is not applicable for the
                                                undefinitized change order.

                                                 A copy of FAR 52.216-26- Payments of Allowable Costs Before Definitization
                                                and FAR 16.603- Letter Contracts, Attachment 3.




                                                                           Page 10 of 11




30 │DODIG-2014-115
                                                                                                                                            Management Comments



Missile Defense Agency Comments (cont’d)


          TITLE OF DOCUMENT                                                                                               DATE OF
          MDA TECHNICAL COMMENTS on Draft Report for DoD IG Project # DIP0AI-0231.000                                    DOCUMENT
                                                                                                                          May 2014
                                                                                                                         COMMENT VALUE
                                     RECOMMENDED CHANGES WITH RATIONALE                                                (C) Critical
           ITEM   PAGE    LINE NO.
                                     (Exact wording of suggested change)                                               (S) Substantive
            NO.    NO.
                                                                                                                       (A) Administrative
                                     Comment: We find the statement that MDA did not comply with a key
                                     contract clause to be inaccurate (continued).

                                     On block 6 on the award cover sheet of the letter contract, contract
                                     administration is to be done by DCMA HUNTSVILLE, BUILDING 4505
                                     SUITE 301, MARTIN ROAD, REDSTONE ARSENAL AL 35898.
                                     Additionally, the clause for invoicing and vouchering below is in the letter
                                     contract.

                                     Rationale: Invoice and vouchering was done in accordance with the following
                                     clause in the letter contract.

                                     INVOICING AND VOUCHERING
                                     A. When authorized by the Defense Contract Audit Agency (DCAA) in
                            1st      accordance with DFARS 242.803(b)(i)(C), the contractor may submit interim                (C)
           18     11
                         Paragraph   vouchers directly to paying offices. Such authorization does not extend to the
                                     first and final vouchers. Submit first vouchers to the cognizant DCAA office.
                                     Final vouchers will be submitted to the ACO with a copy to DCAA. B. Upon
                                     written notification to the contractor, DCAA may rescind the direct submission
                                     authority. Should the contractor decline to submit interim vouchers directly to
                                     paying offices or if the contractor receives written notification that DCAA has
                                     rescinded the direct submission authority, public vouchers, together with
                                     necessary supporting documentation, shall be submitted to the cognizant
                                     Defense Contract Audit Agency (DCAA) office, prior to payment by the
                                     Finance and Accounting Office specified in Block 12, Page 1, Section A, of
                                     Standard Form 26.D. DCMA and DCAA were responsible for the invoicing of
                                     this letter contract.

                                      A copy of FAR 52.216-26- Payments of Allowable Costs Before Definitization
                                     and FAR 16.603- Letter Contracts, Attachment 3

                                                                 Page 11 of 11




                                                                                                                                                  DODIG-2014-115│ 31
Acronyms and Abbreviations




                 Acronyms and Abbreviations
                      DCAA Defense Contract Audit Agency
                      DFARS Defense Federal Acquisition Regulation Supplement
                        FAO Field Audit Office
                        FAR Federal Acquisition Regulation
                       GMD Ground-based Midcourse Defense
                       MDA Missile Defense Agenc
                        OIG Office of Inspector General
                        PGI Procedures, Guidance, and Instruction




32 │ DODIG-2014-115
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                       Reports Mailing List
                     dodig_report@listserve.com

                               Twitter
                         twitter.com/DoD_IG

                            DoD Hotline
                           dodig.mil/hotline
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
